                   Audit of Florida’s Management Controls 

                     Over Perkins III Performance Data





                                   FINAL AUDIT REPORT

                              Control Number ED-OIG/A03-C0019

                                         JULY 2003





Our mission is to promote the efficiency,               U.S. Department of Education
effectiveness, and integrity of the                     Office of Inspector General
Department’s programs and operations.                   Philadelphia, Pennsylvania
                                    NOTICE

Statements that management practices need improvement, as well as other
conclusions and recommendations in this report, represent the opinions of the Office
of Inspector General. Determinations of corrective action to be taken will be made
by appropriate Department of Education officials.

In accordance with the Freedom of Information Act (5 U.S.C. §552), reports issued
by the Office of Inspector General are available, if requested, to members of the
press and general public to the extent information contained therein is not subject to
exemptions in the Act.
                                 u.s. DEPARTMENT OF EDUCATION
                                              THE WANAMAKER BUILDING 

                                           100 PENN SQUARE EAST, SUITE 502 

                                                PHILADELPHIA, PA 19107 





     OFFICE OF
INSPECTOR GENERAL                                                                  July 30, 2003



  Jim Home, Commissioner
  Florida Department of Education
  Turlington Building, Suite 1514
  325 West Gaines Street
  Tallahassee, Florida 32399

  Dear Commissioner Home:

  Enclosed is our final audit report, Control'No. ED -OIGI A03-C0019, entitled "Audit of
  Florida's Management Controls Over Perl{ins III Performance Data". The report incorporates
  the comments you provided in response to the draft audit report. If you have any additional
  comments or information that you believe; may have a bearing on the resolution of this audit, you
  should send them directly to the following Education Department official, who will consider
  them before taking final Departmental action on the audit:

                           Richard LaPointe, Deputy Assistant Secretary
                           Office of Vocational and Adult Education
                           U. S. Department of Education
                           400 Maryland Av ertue , SW
                           Room 4090 MES
                           Washington, DC 20202

  It is the policy of the U.S. Department of Education to expedite the resolution of audits by
  initiating timely action on the findings and recommendations contained therein. Therefore,
  receipt of your comments within 30 days would be greatly appreciated.

  In accordance with the Freedom of Inforniation Act (5 U.S.C §552), reports issued by the Office
  of Inspector General are available, ifrequ¢sted, to members of the press and general public to the
  extent information contained therein is not subj ect to exemptions in the Act.

                                              Sincerely,
                                              ~.r.-:
                                              BerrtardT~ 
General for Audit
                                              Reg~onallnspector


  Enclosure




        ·OUr Mission is to Ensure Equal Access to Ed~n and to Promote Educational Excellence Throughout the Nation"
                                  TABLE OF CONTENTS



                                                                                 Page


Executive Summary                                                                1


Audit Results                                                                    3


Finding No. 1 – FL DOE’s Perkins III Performance Data for Community 

                Colleges Were Not Complete.                                      4


Finding No. 2 – FL DOE’s Perkins III Performance Data Reported to ED Were

                Not Accurate and Reliable for Secondary and Postsecondary

                Performance Measure Sub- indicators 1S1, 1P1, 

                1P2, 2P1, and 1A1                                                5


Finding No. 3 – FL DOE Needs to Improve Its Documentation Process for

                Summarizing Community College Reports                            7


Finding No. 4 – FL DOE Needs to Improve the Processing of School Districts

                Performance Data Reports                                         8


Other Matter                                                                     10


Background                                                                       10


Objective, Scope and Methodology                                                 12


Statement on Management Controls                                                 13


Appendix A: Excerpt from the Florida Department of Education’s State Plan, 

            Re: Data Assurance                                                   14


Appendix B: Definitions of the Florida Department of Education’s Performance 

            Measures                                                             15


Appendix C: The Universes and Number of Students Sampled at Each Local 

            Agency by Sub-Indicator                                              17


Appendix D: FL DOE Comments on the Draft Report:                                 18


Glossary :                                                                       22

Audit of Florida’s Management Controls
Over Perkins III Performance Data              Final Report            Control Number ED-OIG/A03-C0019



                                           Executive Summary

The purpose of this audit was to assess management controls at the Florida Department of
Education (FL DOE) and local agencies to ensure that performance data reported to the U.S.
Department of Education (ED) for the Carl D. Perkins Vocational and Applied Technology
Education Act, Public Law 105-332, (Perkins III) for the 2000-2001 program year (July 1, 2000,
through June 30, 2001) were complete, accurate, and reliable. As part of our audit, we reviewed
data reported in FL DOE’s Consolidated Annual Report (CAR) that was due to ED on December
31, 2001.

Except for the weaknesses described in the Audit Results section, FL DOE had put a number of
controls in place to ensure the quality of the performance data. These controls included the
electronic linking of local agencies with FL DOE’s data accountability system. This system
allowed for control at the local agency level, whereby each agency had its own method and
system for collecting the data to satisfy the criteria for the data elements. Additional steps to
improve controls included ongoing oversight, review of the data, and continuous training and
technical assistance. FL DOE also provided management information system reports to local
agencies and automated tools, such as data edits, to improve controls over the quality of the data
it received from the local agencies.

In addition, FL DOE is currently using the data to tie workforce education funding to
performance outcomes. 1 FL DOE has transformed the workforce development education
funding process from a system based on the number of students served to one based on
performance. In order to implement the funding formula, school administrators have found it
necessary to make significant changes in their program offerings, as well as in the method of
gathering and reporting data. The results are that more schools are using the performance data to
identify and remove vocational education programs that are poor performers.

While FL DOE had a process to collect and report Perkins III performance data to ED, it needs
to strengthen controls over this process to ensure that the data are complete, accurate, and
reliable. Specifically, our audit disclosed that:

    •	 FL DOE’s Perkins III performance data for community colleges were not complete. It
       did not report Perkins III performance data for 64 percent of its community colleges.
    •	 FL DOE’s Perkins III performance data reported to ED were not accurate and reliable for
       secondary and postsecondary performance measure sub- indicators 1S1, 1P1, 1P2, 2P1,
       and 1A1. 2 FL DOE overstated the number of students reported for these sub- indicators
       by reporting; (1) duplicate students’ records; (2) non-Perkins III students; (3) students
       who were not completers; and (4) students who dropped enrollment.




1
  According to the Florida Office of Program Policy Analysis and Government Accountability, program review
titled Workforce Development Education Program, Florida Department of Education, Report No. 01-56, November
2001.
2
  These identifiers were used to describe FL DOE’s sub-indicators. Refer to Table I, in the Audit Results section of
the report for a description of each sub-indicator reviewed.
                                                         1

Audit of Florida’s Management Controls
Over Perkins III Performance Data        Final Report        Control Number ED-OIG/A03-C0019

    •	 FL DOE needs to improve its documentation process for summarizing community
       college reports. There was a discrepancy in the total number of student records used for
       the Perkins III report and the data file maintained by FL DOE.
    •	 FL DOE needs to improve the processing of school districts’ performance data reports. It
       did not follow up on school districts that did not have performance measurement data
       reported for placement sub- indicator 3S1.

We recommend that the Assistant Secretary for Vocational and Adult Education require FL DOE
to develop additional procedures, establish system edits, and controls to ensure that Perkins III
data reported to ED are complete, accurate, and reliable.

In its comments to the draft report, FL DOE generally concurred with the findings and
recommendations. FL DOE stated that they had completed some actions and was implementing
additional controls to ensure the quality of the Perkins III performance data. It appears that the
actions taken will address the issues identified. FL DOE’s comments are summarized at the end
of each finding and included in their entirety as Attachment D.




                                                  2

Audit of Florida’s Management Controls
Over Perkins III Performance Data                Final Report           Control Number ED-OIG/A03-C0019



                                                  Audit Results

This report presents the results of our audit of the management controls over FL DOE’s Perkins
III performance data reported to ED. Our objective was to determine if the management controls
at FL DOE and the local agencies were adequate to ensure that Perkins III performance data
reported to ED for program year (PY) 2000-2001 (July 1, 2000 through June 30, 2001) were
complete, accurate, and reliable. As part of our audit, we reviewed the following FL DOE
performance measure sub- indicators 3 .

    •	   Secondary Academic Attainment (1S1)                    •   Postsecondary Completion (2P1)
    •	   Secondary Technical Skill Attainment (1S2)             •   Postsecondary Placement (3P1)
    •	   Secondary Completion (2S1)                             •   Certificate Academic Skills (1A1)
    •	   Secondary Placement (3S1)                              •   Certificate Technical Skills (1A2)
    •	   Postsecondary Academic Attainment (1P1)                •   Certificate Completion (2A1)
    •	   Postsecondary Technical Skill Attainment               •   Certificate Placement (3A1)

         (1P2)


FL DOE had in place a number of controls over Perkins III performance data. While FL DOE
had a process to collect and report Perkins III performance data to ED, it needs to strengthen
controls over this process. We found that FL DOE’s management controls did not always ensure
that Perkins III performance data reported to ED were complete, accurate, and reliable. The
following table identifies the data quality problems we found during the audit.

                            Table I – Summary of Issues by Sub-Indicators
     Type of Data Quality Problem Found in                      Performance Sub­          Finding
     Perkins III Data Submitted to ED                              Indicator(s)           Number
     Data from 64 percent of FL DOE’s                             1P1, 1P2, 2P1              1
     community colleges were not reported to ED.
     The number of students reported was                        1S1, 1P1, 1P2, 2P1,          2
     overstated for several secondary and                              1A1
     postsecondary performance measure sub-
     indicators.
     The total number of student records in the                         1P1                  3
     supporting data file varied from the number
     FL DOE reported to ED for community
     colleges.
     Thirteen percent of school districts failed to                     3S1                  4
     report occupational completion point data.




3
    See Appendix B for the definitions of the sub-indicators.
                                                           3
Audit of Florida’s Management Controls
Over Perkins III Performance Data                 Final Report            Control Number ED-OIG/A03-C0019

Finding No. 1 - FL DOE’s Perkins III Performance Data for Community Colleges Were
Not Complete.

Based on our review of community college data reported to ED, we found that FL DOE omitted
Perkins III performance data for 64 percent (18 of 28) of the community colleges because the
data the community colleges submitted did not meet its data error threshold. 4 Under FL DOE’s
accountability system, community colleges had 30 days at the end of the reporting period to
submit data and correct any data errors. FL DOE’s policy did not accept changes to the
performance data after the 30 days. In addition, if the community colleges’ data did not meet the
data error threshold, their data were not included in FL DOE’s Perkins III CAR to ED.

Although 18 community colleges failed to meet FL DOE’s data error threshold requirement, the
law requires that all eligible institutions report complete data to ED. Under Perkins III, Part B, §
123(b), “each eligible agency shall evaluate annually, using the State adjusted levels of
performance, the vocational and technical education activities of each eligible recipient receiving
funds under this title.” FL DOE did not evaluate and report to ED the performance of these 18
community colleges. In addition, Part B, § 122(c)(20) requires the state plan to include
information that “describes how the eligible agency will ensure that the data reported to the
eligible agency from local educational agencies and eligible institutions under this title and the
data the eligible agency reports to the Secretary are complete, accurate, and reliable.”5 Although
FL DOE’s plan included this information, it did not ensure that the community college
performance data reported to ED were complete.

In its Perkins III CAR, FL DOE provided the following qualification for not meeting the
requirement: “In a continuous improvement model, Florida has elected to use measures that
cannot yet be fully implemented. Once all colleges have implemented the appropriate data
elements, Florida will be reporting on all students in all colleges.” We concluded that although
FL DOE disclosed that it was having difficulty implementing the measures, it appears that the
measures could be and were implemented, because 10 community colleges were able to report
the appropriate Perkins III data elements. In addition, FL DOE did not disclose that 18
community colleges were omitted.

We visited one community college where data were not reported. We were told by the
community college official that the reason there were problems with the data was that FL DOE
did not provide Perkins III reporting criteria in a timely manner.

As a result, FL DOE reported performance data based on incomplete community college data.
ED relies on this data to assess program results and progress and to report program information
to Congress. FL DOE needs to ensure that all community colleges collect and report the
appropriate Perkins III performance data elements. The FL DOE should also identify and
resolve data errors in sufficient time to be able to report complete data to ED.
FL DOE’s accountability system needs to provide complete community college performance
information as required by law, so that ED can meet its administrative requirements.




4
    The FL DOE do not accept data from local agencies if the data error rate exceeds a 30 percent threshold.
5
    See Appendix A for excerpt from the data assurance section of the FL DOE’s State Plan.
                                                           4

Audit of Florida’s Management Controls
Over Perkins III Performance Data                Final Report               Control Number ED-OIG/A03-C0019

Recommendations:

We recommend that the Assistant Secretary for Vocational and Adult Education require FL DOE
to:

      1.1	 Report Perkins III performance data for all community colleges that receive Perkins III
           funding. In addition, it should make full disclosure of the problem and what is being
           done to correct it.
      1.2	 Establish controls to ensure that Perkins III reporting criteria are provided to all 

           community colleges in a timely manner.

      1.3	 Develop procedures to identify and resolve data errors in time to meet Perkins III
           reporting requirements.

FL DOE Comments:

FL DOE concurred with our finding and recommendations. In its response to the draft report, FL
DOE stated that 20 of the 28 community colleges met the data quality standards for PY 2001­
2002. FL DOE required the community colleges that did not meet the data quality standards to
identify how they will correct the deficiency prior to receiving next year’s funding. FL DOE
stated that they provided the selection criteria to community college coordinators prior to data
submission. Realizing that constant updating is important, it will present Federal (Perkins)
update at most reports coordinators meetings, state data base meetings, and at many state and
regional workshops. FL DOE also stated that it implemented a process to enable State staff to
take an in-depth look at data issues for each measure at each local educational agency for
multiple years. Steps are also being taken to review this local data prior to the CAR submission
of state data.

Finding No. 2 - FL DOE’s Perkins III Performance Data Reported to ED Were Not
                Accurate and Reliable for Secondary and Postsecondary Performance
                Measure Sub-indicators 1S1, 1P1, 1P2, 2P1, and 1A1.

FL DOE did not report accurate and reliable data in its CAR to ED for sub- indicators 1S1, 1P1,
1P2, 2P1, and 1A1. Based on our review of data reported for the local agencies sampled, FL
DOE overstated the number of students by reporting: (1) duplicate students’ records; (2) students
who were not vocational concentrators; (3) students who were not completers; and (4) students
who dropped enrollment. We found that:

      •	 For one local agency, 49 percent (852 of 1,743) of students’ records were reported more
         than once in performance sub- indicators 1P1, 1P2, and 2P1. 6 For the majority of the
         records, the differences were attributed to changes in the student’s Classification of
         Instructional Program (CIP) number. Under FL DOE’s accountability system, local
         agencies could change a student’s CIP number when the type of degree or certificate
         award program changed. However, FL DOE did no t have controls in place to prevent the
         student’s previous record from being reported and counted as a separate record. FL DOE
         became aware of the duplicate student records as a result of working with the local
         agency to change the CIP numbers, but FL DOE incorrectly made a decision to report the

6
    The 49 percentage is an average for sub-indicators 1P1, 1P2, and 2P1.
                                                           5

Audit of Florida’s Management Controls
Over Perkins III Performance Data        Final Report        Control Number ED-OIG/A03-C0019

        duplicate records. This decision did not agree with the definition of FL DOE
        performance measures. These performance measures require that FL DOE report the
        number of students who declared a program of study, not the number of students enrolled
        in the different vocational education programs. In conjunction with this issue, we found
        that FL DOE had not established system edit checks to identify and eliminate duplicate
        social security numbers from being reported.

    •	 Eighteen percent (9 of 50) of the students sampled at one local agency for sub- indicator
       1P1 were enrolled in non-Perkins III courses. These students, who were not vocational
       concentrators, were enrolled in either enhancement or refresher courses during the
       program year. For some vocational and technical occupations, individuals are required to
       attend refresher courses in order to maintain State certification. Since these individuals
       were previously enrolled in a Perkins III program, FL DOE 's account ability system
       inadvertently identified them as Perkins III students.

    •	 Fourteen percent (4 of 28) of the students sampled at two local agencies for sub-
       indicators 1S1and 1A1 were not completers. These performance measures required FL
       DOE to report students who completed a vocational education program. Under FL
       DOE’s accountability system, vocational completers were those students who had
       attained the academic and technical knowledge/skills/proficiencies in their
       programs/sequences of courses. We found that students were reported as completers but
       did not have sufficient credits to meet FL DOE’s requirement for program completion.

    •	 Eight percent (2 of 25) of the students sampled at one local agency for sub-indicator 1P2
       dropped their enrollment before attending classes. These students enrolled but failed to
       attend during the reporting year.

Under Perkins III, Part B, § 122(c)(20), states are required to include information that “describes
how the eligible agency will ensure that the data reported to the eligible agency from local
educational agencies and eligible institutions under this title and the data the eligible agency
reports to the Secretary are complete, accurate, and reliable.” Although, FL DOE’s plan
included this information, it did not ensure that performance data reported to ED were accurate
and reliable. In addition, ED Office of Vocational and Adult Education’s (OVAE’s) Core
Indicator Framework, dated January 2000, established the following data quality criteria for
reporting performance measures. This framework is the basis for states to report Perkins III
performance data to ED.

        Data Quality Criteria

        Validity– The degree to which the performance measures approach directly and fully
        measures the student outcomes at an appropriate interval. Directly measures what they
        are supposed to measure.

        Reliability – Requires states to use effective management information systems for
        insuring data quality.

The student data reported to ED for sub- indicators 1S1, 1P1, 1P2, 2P1, and 1A1 were not
accurate and reliable because FL DOE’s accountability system did not always measure what it
                                                  6

Audit of Florida’s Management Controls
Over Perkins III Performance Data        Final Report        Control Number ED-OIG/A03-C0019

was intended to measure. In addition, FL DOE did not establish controls to identify duplicate
student records nor students who either dropped enrollment or were enrolled in a non-Perkins III
course. Perkins III funds are allotted to Florida based on a formula that takes into account the
student population. Overstating the number of students could affect the Perkins III funding for
the State.

Recommendation:

We recommend that the Assistant Secretary for Vocational and Adult Education require FL DOE
to:

    2.1 Establish controls and system edits to ensure it does not report multiple student records,
        and students it reports to ED meet the Perkins III criteria in the State Plan.

FL DOE Comments:

FL DOE generally concurred with our finding and recommendation. In its response to the draft
report, FL DOE stated that new controls were implemented to ensure that data are unduplicated
and students that withdrew prior to attending classes are not reported. FL DOE was uncertain
about the issue relating to sub- indicators 1S1 and 1A1.


Finding No. 3 - FL DOE Needs to Improve Its Documentation Process for Summarizing
                Community College Reports

FL DOE did not report accurate data on community colleges to ED. A review of the data file for
one community college for sub- indicator 1P1 disclosed a discrepancy in the total number of
student records used for the Perkins III CAR report and the data file provided to the auditors.
We randomly selected and reviewed the records of one of the 10 community colleges whose data
were included in FL DOE’s Perkins III CAR report. The summary report for the selected
community college showed that there were 5,969 detailed student records. We requested and
were provided a file that should have contained the details on these 5,969 records. The FL DOE
official who handled the community college data explained that the file contained some
unwanted records. We eliminated those records and determined there were 5,928 records. The
official was unable to explain the difference in the number of records. The official reviewed the
data again and determined the total number of student records was actually 5,911.

Under Perkins III, Part B, § 122(c)(20), states are required to include information that “describe
how the eligible agency will ensure that the data reported to the eligible agency from local
educational agencies and eligible institutions under this title and the data the eligible agency
reports to the Secretary are complete, accurate, and reliable.” Although, FL DOE’s plan
included this information, it did not ensure that the community college performance data
reported to ED were accurate.

FL DOE did not have procedures in place to maintain supporting documentation for the data
contained in the CAR for sub- indicator 1P1. FL DOE officials indicated that they revised the
data reports when they noted errors to assure the process changes would be available for the next
reporting year. However, FL DOE officials did not keep the supporting data for the Federal
                                                  7

Audit of Florida’s Management Controls
Over Perkins III Performance Data             Final Report            Control Number ED-OIG/A03-C0019

reporting totals. Since there was no audit trail and the differences could not be verified, we were
not able to determine if the computer output supporting the CAR for sub- indicator 1P1 was
complete, accurate, and reliable. In addition, since the CAR for sub- indicator 1P1 contained
unwanted records that FL DOE did not remove, it did not accurately report the performance
measure.

Recommendation:

We recommend that the Assistant Secretary for Vocational and Adult Education require FL DOE
to:

    3.1 Develop procedures to capture the original file information to support the CAR and
        document the reason for anomalies and differences in the data files found after Perkins III
        reporting.

FL DOE Comments:

FL DOE concurred with our finding and recommendation. In its response to the draft report, FL
DOE stated it implemented procedures to capture the 2001-2002 data.


Finding No. 4 – FL DOE Needs to Improve the Processing of School Districts Performance
                Data Reports.

FL DOE did not follow up on school districts that did not report data for certain performance
measures. We found 13 percent (9 of 67) of school districts did not have performance
measurement data reported for placement sub- indicator 3S1. We performed a site visit at one of
these districts. A review of the detailed student record data for that district showed that 25
students had Occupational Completion Points (OCPs) in 1998-1999 and 2000-2001, but no
student had OCPs in 1999-2000, our audit period. 7 The district official indicated that students
had OCPs that year, but they had a problem reporting them to FL DOE.

Under Perkins III, Part B, § 122(c)(20), states are required to include information that “describe
how the eligible agenc y will ensure that the data reported to the eligible agency from local
educational agencies and eligible institutions under this title and the data the eligible agency
reports to the Secretary are complete, accurate, and reliable.” Although FL DOE’s state plan
included this information, it did not ensure that the performance data was accurate and complete.

We found that FL DOE did not have procedures to routinely compare data reported in the current
year to the previous year or to follow up on districts that did not report data. FL DOE officials
claimed that there were management reports in the system available for the school districts to use
and determine this type of information. Though reports are available to the school districts, they
are also available to FL DOE. FL DOE officials did not use these reports to review the data
themselves. FL DOE is ultimately responsible to report accurate and complete data to ED,


7
   The Perkins III performance measure for placement required States to use student completion data from the
previous reporting year. For example, in order for FL DOE to gather placement data for reporting year 2000-2001,
it must use students who completed their program of study in year 1999-2000.
                                                        8

Audit of Florida’s Management Controls
Over Perkins III Performance Data        Final Report         Control Number ED-OIG/A03-C0019

therefore it should also use these reports to review the school district data before reporting them
to ED.

ED cannot be assured that the data for school districts were accurate and complete for sub-
indicator 3S1. ED relies on this data to assess program results and progress and to report that
information to Congress. FL DOE did not ensure that complete data was reported to ED for this
performance measure.

Recommendation:

We recommend that the Assistant Secretary for Vocational and Adult Education require FL DOE
to:

    4.1 Develop procedures to routinely compare data reported in the current year to the previous
        year and follow up on school districts that do not report data.

FL DOE Comments

FL DOE concurred with our finding and recommendation. In its response to the draft report, FL
DOE stated that, for postsecondary data, reports are prepared to compare data reported in the
current year to the previous year. FL DOE also implemented a process requiring local staff to
identify both data and program improvement strategies by looking at multiple years of data.
Steps are being taken to review this local data prior to the submission of the State’s CAR.




                                                  9

Audit of Florida’s Management Controls
Over Perkins III Performance Data         Final Report         Control Number ED-OIG/A03-C0019



                                          Other Matter

In addition to the findings discussed in the Audit Results section of this report, we noted the
following minor deficiency.

FL DOE’s Perkins III performance data were not always coded accurately at the local agency
level. Two of the four local agencies we sampled did not always code students’ data accurately.
The coding errors included incorrect OCP codes for eight percent (6 of 71) of the students
sampled and the wrong technical preparation (tech-prep) code for 15 percent (18 of 121) of the
students sampled.

We found that some local agencies’ controls were not adequate to ensure that Perkins III
performance data were coded and input correctly. As a result, the data reported did not
accurately measure the performance of the students. ED relies on this data to assess program
results and progress. Although the coding errors we noted were minor, FL DOE should provide
technical assistance to local agencies to establish additional controls that will ensure that the
coded data are accurate.


                                           Background


The Carl D. Perkins Vocational and Applied Technology Education Act of 1998 (Perkins III),
Public Law 105-332, was signed into law on October 31, 1998, and is administered by the U.S.
Department of Education, Office of Vocational and Adult Education (OVAE). The purpose of
Perkins III is to develop more fully the academic, vocational, and technical skills of secondary
and postsecondary students who elect to enroll in vocational and technical education programs.
All States receive funds for secondary and postsecondary education. The funds are allotted to
the States based on a formula which takes into account the State’s population in certain age
groups and their per capita income. Only State Boards for Vocational Education are eligible to
apply to ED for State Basic Grants. The distribution of grant funds within a state is directed to
priority items established by the State in accordance with an approved State plan for vocatio nal-
technical education. Local educational agencies and postsecondary institutions are eligible local
agencies of the grants. Local agencies can be school districts, technical institutions, and
community colleges.

The central goals of Perkins III are improving student achievement and preparing students for
postsecondary education, further learning, and careers in current or emerging occupations
requiring other than a baccalaureate or advanced degree. Perkins III gives States, school
districts, and postsecondary institutions greater flexibility to design services and activities that
meet the needs of their students and communities. In return for greater flexibility, States must
establish more progressive performance standards and goals, and are held to a higher degree of
accountability.

Perkins III establishes a rigorous State performance accountability system to assess the
effectiveness of the State in achieving progress in vocational and technical education and to
optimize the return of investment on Federal funds in vocational and technical education
                                                  10

Audit of Florida’s Management Controls
Over Perkins III Performance Data        Final Report        Control Number ED-OIG/A03-C0019

activities. Perkins III requires States to identify specific measures and targeted levels of
performance in its State plan, and to track its achievements in four specific outcome areas:

    •   academic and technical skill attainment;
    •   completion;
    •   placement and retention; and
    •   non-traditional participation and completion.

There are specific sub- indicators under each outcome area. Performance data must be provided
for vocational concentrators and broken down by special population categories. States may also
add additional performance indicators to its plan. Furthermore, Perkins III requires States to
reach agreement with the Secretary on targeted levels of performance. States that exceed agreed
upon performance levels for Perkins III, the Adult Education and Family Literacy Act, and Title
I of the Workforce Investment Act are eligible for incentive grant awards. The actual level of a
State’s Perkins III performance is defined as a percentage, based on the number of students in the
numerator and denominator for each sub- indicator. The State reports the numerator,
denominator, and level of performance in the Perkins III CAR.

Perkins III took effect in PY 1999-2000, which began on July 1, 1999. By April 12, 1999, FL
DOE submitted a new plan for Perkins III, taking into account the targeted performance level
and measurement of core indicators of performance for Perkins III. Our audit reviewed data
from PY 2000-2001, the second year governed under the new law. Congress appropriated more
than $1 billion for Perkins III in PY 2000-2001. FL DOE received $50 million in Perkins III
basic grant funds and received an additional $3 million in incentive grant funds under the
Workforce Investment Act of 1998. FL DO E was required to submit its first Perkins III
performance report to ED for PY 2000-2001 by December 31, 2001.

Administration of Perkins III was handled by the FL DOE, Division of Workforce Development
(DWD). DWD coordinated data collection periods, oversaw data collection and processing,
compiled and reviewed the data, and reported it to ED. Vocational student data were gathered
electronically from the local agencies by FL DOE’s Division of Technology (for school districts)
and the Division of Community Colleges. Each local agency had its own method to collect and
process the student data used for Perkins III reporting. They transmitted the data to DWD’s
Northwest Regional Data Center, located in Tallahassee, FL. Data records collected from the
school districts and community colleges were then put through a matching process in the Florida
Education Training and Placement Information Program (FETPIP) system. FETPIP is a central
database that contains data records from many State agencies. For Perkins III reporting
purposes, it determined placement data for students. FETPIP tracked them as they furthered
their post-secondary education, joined the workforce or the military, determined whether the
student collected unemployment compensation or even if they were incarcerated. After the
student data records from the local agencies were updated with placement information from
FETPIP, DWD consolidated the data into the CAR for reporting to ED.




                                                 11

Audit of Florida’s Management Controls
Over Perkins III Performance Data         Final Report       Control Number ED-OIG/A03-C0019



                             Objective, Scope, and Methodology


The purpose of this audit was to assess management controls at FL DOE and local agencies to
ensure that Perkins III performance data reported to ED for PY 2000-2001 were complete,
accurate, and reliable. The review focused on the quality of the data submitted by the local
agencies to FL DOE and how FL DOE collected and compiled that data for annual reporting to
ED.

Our audit covered the performance data for Perkins III funds awarded during PY 2000-2001.
We sampled and reviewed FL DOE’s performance data for the numerator and denominator of 12
sub- indicators to determine it the data was complete, accurate, and reliable (See the Audit
Results Section for a description of the sub- indicators reviewed).

We visited FL DOE and four local agencies and reviewed the data collection and reporting
processes related to Perkins III performance data. Our audit included a review of management
controls and data reliability testing. Using simple random sampling, we randomly selected one
local agency from each of the following universes of local agencies that had vocational
educational programs and received Perkins III funds. We chose an additional community college
to audit, as data were not available for all of the sub-indicators at the first community college we
selected.

                            Table II. – Universe of Local Agencies
Secondary Schools                                                         67
Post-Secondary Technical Centers                                          38
Community Colleges                                                        28

We conducted our fieldwork at FL DOE, in Tallahassee, FL; DeSoto County School District, in
Arcadia, FL; Hillsborough Community College, in Tampa, FL; First Cost Technical Institute
(provides vocational education for St. John’s School District), in St. Augustine, FL; and St.
Petersburg College, in St. Petersburg, FL.

To accomplish our audit objective, we interviewed FL DOE and local agency officials
responsible for gathering and reporting Perkins III performance data. We evaluated FL DOE’s
procedures used to collect the data for the CAR to determine whether its management controls
ensure that Perkins III performance data were complete, accurate, and reliable. We tested the
accuracy and completeness of the data for the four local agencies visited by using simple random
sampling to select the student records from FL DOE’s database. We visited the four local
agencies selected to obtain and review the supporting documentation. We randomly selected and
tested 341 students from a universe of 20,279 unique student identification numbers (See
Appendix C for the universes and the number of students sampled at each local agency by sub-
indicator). Additionally, we reviewed the students’ placement information (for sub- indicators
3S1, 3P1, and 3A1) by performing a test of the FETPIP system.

During the audit, we relied on computer-processed Perkins III-related student records. To assess
the reliability of the data, we compared the computer processed data with source documentation
(student and school records). We also performed completeness tests involving record counts

                                                  12

Audit of Florida’s Management Controls
Over Perkins III Performance Data         Final Report         Control Number ED-OIG/A03-C0019

within the databases of student information. Based on these tests, we concluded that the data
were sufficiently reliable to be used in meeting the audit objective.

We performed our fieldwork at FL DOE and the local agencies from June 24, 2002, to
November 6, 2002. We held an exit conference at FL DOE on November 7, 2002. We
conducted the audit in accordance with generally accepted government auditing standards
appropriate to the scope of the review described above.

                            Statement on Management Controls


We have made a study and evaluation of the management control structure of FL DOE’s
accountability system over Perkins III performance data in effect during our fieldwork. For the
purposes of this report, we assessed and classified the significant management control structure
into the following categories:
        •	 Process of coding and inputting Perkins III performance data;
        •	 Process for receipt of Perkins III performance data;
        •	 Data review and edit process; and
        •	 Reporting Perkins III performance data.

The management of FL DOE is responsible for establishing and maintaining a management
control structure. In fulfilling this responsibility, estimates and judgment by management are
required to assess the expected benefits and related cost of control procedures. The objectives of
the management control structure are to provide management with reasonable, but not absolute,
assurance that program performance is properly assessed and measured and that the transactions
are executed in accordance with management’s authorization and recorded properly, so as to
permit effective and efficient operations.

Because of inherent limitations in any management control structure, errors or irregularities may
occur and not be detected. Also, projection of any evaluation of the system to future periods is
subject to the risk that procedures may become inadequate because of changes in condition, or
that the degree of compliance with the procedures may deteriorate.

In our opinion, the management control structure of FL DOE in effect during the fieldwork,
taken as a whole, was sufficient to meet the objectives stated above insofar as those objectives
pertain to the prevention or detection of errors, or irregularities that would be material in relation
to Perkins III. However, our assessment did disclose the following conditions in the
management control structure of Perkins III.
    •	 FL DOE’s Perkins III performance data for community colleges were not complete.
    •	 FL DOE’s Perkins III performance data reported to ED were not accurate and reliable for
        secondary and postsecondary performance measure sub- indicators 1S1, 1P1, 1P2, 1A1,
        and 2P1.
    •	 FL DOE needs to improve its documentation process for summarizing community
        college reports.
    •	 FL DOE needs to improve the processing of school districts performance data reports.

These weaknesses and their effects are fully discussed in the Audit Results section of this report.


                                                  13

Audit of Florida’s Management Controls
Over Perkins III Performance Data        Final Report         Control Number ED-OIG/A03-C0019



Appendix A

Excerpt from the Florida Department of Education’s State Plan, Re: Data Assurance:

Section: 4.5 Ensuring that the data reported to the State from local educational agencies
             and eligible institutions under Pe rkins III and the data you report to the
             Secretary are complete, accurate, and reliable. [Sec. 122(c)(20)]

The data gathered through the Florida educational data system are reported using a uniform,
coordinated statewide system of data elements and formats. These elements have statewide
definitions, characteristics, and submission requirements, including submission dates and
correction windows.

Data are edited, first at the local level using edits pulled down from the state level, and then at
the state level when the data are received. Edits include internal examination of responses to
specific elements, cross-referenced examinations of related elements, and cross-referenced
examinations between and among elements on multiple formats. If the level of error exceeds a
predetermined level, no records are loaded. In all cases, edit errors are communicated to the
local level for review and correction.

Several strategies are employed in a continuing effort to maintain and/or improve the
completeness, accuracy, and reliability of the data. There is local and state educational agency
review and input periodically (at least annually), including a formalized data advisory group for
this purpose. There is, in addition, continuous monitoring by management information services
and program staff. Management reports providing data displays, analyses, and comparisons for
single and multiple years are used as part of these processes.




                                                 14

Audit of Florida’s Management Controls
Over Perkins III Performance Data               Final Report            Control Number ED-OIG/A03-C0019



Appendix B
     Definitions of the Florida Department of Education’s Performance Measures8

Core Indicator 1 - Academic and Technical Skill Attainment
Measure           Approach                       Numerator                              Denominator
     1A1     Postsecondary         Number of students in Vocational        All students enrolled in Vocational
             Certificates          Certificate (PSAV) programs who         Certificate (PSAV) programs that are
             Academic Skills       achieved an OCP and who have            not exempt from the Basic Skill exams.
                                   achieved the prescribed Basic Skills
                                   levels.
     1A2     Postsecondary         Number of students who achieved at      All students enrolled in a Vocational
             Certificates          least one OCP in a Vocational           Certificate (PSAV) program.
             Technical Skills      Certificate (PSAV) program.
     1P1     Postsecondary         Number of students who meet the         Number of students who have declared
             College Credits       criteria in the denominator and who     a career degree program of study or a
             Academic              have attained a GPA of 2.5 or higher.   college credit certificate program of
             Attainment                                                    study and who have completed at least
                                                                           11 college credits.
     1P2     Postsecondary         Number of students who have declared    Number of students who have declared
             College Credits       a career degree program of study or a   a career degree program of study or a
             Technical Skills      college credit certificate program of   college credit certificate program of
                                   study and who have completed at least   study and who are enrolled in the
                                   11 college credits.                     reporting year.
     1S1     Secondary             Number of secondary vocational job      Number of secondary vocational job
             Academic              preparatory students who achieved an    preparatory students who achieved an
             Attainment            OCP and attained a high school          OCP and left secondary education in
                                   diploma or its recognized state         the reporting year.
                                   equivalent.
     1S2     Secondary             Number of secondary vocational job   Number of secondary graduates in the
             Technical Skills      preparatory students who achieved an reporting year.
                                   OCP and attained a high school
                                   diploma or its recognized state
                                   equivalent.

Core Indicator 2 - Completion
Measure           Approach                       Numerator                              Denominator
     2A1     Postsecondary         Number of students who achieved a       All students who achieved at least one
             Certificates          Vocational Certificate (PSAV)           OCP in a Vocational Certificate (PSAV)
             Completion                                                    program
     2P1     Postsecondary         Number of students who have             Number of students who have declared
             College Credits       completed a career degree or college    a career degree program of study or a
             Completion            credit certificate.                     college credit certificate program of
                                                                           study and who have completed at least
                                                                           11 college credits.
     2S1     Secondary             Number of secondary vocational job      Number of secondary vocational job
             Completion            preparatory students who achieved an    preparatory students who achieved an
                                   OCP and attained a high school          OCP and left secondary education in
                                   diploma or its recognized state         the reporting year.
                                   equivalent.



8
    Definitions were provided by the Florida Department of Education.
                                                         15
Audit of Florida’s Management Controls
Over Perkins III Performance Data           Final Report              Control Number ED-OIG/A03-C0019




Core Indicator 3 - Placement and Retention
Measure          Approach                         Numerator                               Denominator
   3A1    Postsecondary             Number of OCP completers who              All completers exiting with a valid
          Certificates Placement    exited the program and were located       social security number.
                                    working, continuing education, or in
                                    the military.
   3A2    Postsecondary             Last year’s placements found still        Student found placed in the previous
          Certificate Retention     working, continuing education, or in      year.
                                    the military.
   3P1    Postsecondary College     Number of program completers who All completers exiting with a valid
          Credits Placement         exited the program and were located social security number.
                                    working, continuing education, or in
                                    the military.
   3P2    Postsecondary College     Last year’s placements found still        Students found placed in the
          Credit Retention          working, continuing education, or in      previous year.
                                    the military.
   3S1    Secondary Placement       Number of completers who exited the All completers exiting with a valid
                                    program and were located working,   social security number.
                                    continuing education, or in the
                                    military.
Core Indicator 4 - Non-Traditional Participation and Completion
Measure          Approach                         Numerator                               Denominator
   4A1    Postsecondary             Number of students enrolled in            All students enrolled in non­
          Certificates              programs non-traditional for their        traditional programs.
          Nontraditional            gender.
          Enrollment
   4A2    Postsecondary             Number of students who completed          All students who completed at least
          Certificates              at least one OCP in a program             one OCP in a non-traditional
          Nontraditional            identified as non-traditional for their   program.
          Completion                gender.
   4P1    Postsecondary College     Number of students enrolled in            Number of students enrolled in
          Credits Nontraditional    career degree or college credit           career degree or college credit
          Enrollments               certificate programs non-traditional      certificate program non-traditional for
                                    for their gender.                         their gender.
   4P2    Postsecondary College     Number of students who completed          All students who completed non­
          Credits Nontraditional    degree or college credit certificate      traditional programs.
          Completion                identified as non-traditional for their
                                    gender.
   4S1    Secondary                 Number of students enrolled in            All students enrolled in non­
          Nontraditional            programs non-traditional for their        traditional programs.
          Enrollment                gender.
   4S2    Secondary                 Number of students who completed          All students who completed at least
          Nontraditional            at least one OCP in a program             one OCP in a non-traditional
          Completion                identified as non-traditional for their   program.
                                    gender.




                                                      16

Audit of Florida’s Management Controls
Over Perkins III Performance Data             Final Report           Control Number ED-OIG/A03-C0019



Appendix C

The Universes and Number of Students Sampled at Each Local Agency by Sub-Indicator

Number of Students Sampled at Each Local Agency by Sub-Indicator
 Local Agency                         Sub- Indicators                                           Total
                  1S1 1S2 2S1 1P1 1P2 2P1 1A1 1A2                                     2A1     Sampled
DeSoto        N (a)      (a)    31
County SD
                                                                                                45
              D     3    11     (a)
Hillsborough N                        (b)   (a)    25
Community                             (b)   50     (a)                                          75
              D
College
St. Johns SD     N                                                      25     (a)    50
(FTCI)                                                                                          121
                 D                                                      25     (a)    21
St.              N                              25      (a)    25
Petersburg                                      25      25     (a)                              100
                 D
College
 Total Sampled         3      11         31     50      75     50       50     (a)    71        341

Universe of Students at Each Local Agenc y by Sub-Indicator
 Local Agency                             Sub- Indicators                                       Total
                     1S1 1S2 2S1 1P1            1P2    2P1               1A1    1A2    2A1     Universe
 DeSoto         N (a) (a) 105
 County SD                                                                                       181
                D 12       64 (a)
 Hillsborough N                        (b)      (a)     589
 Community                             (b)     9,330    (a)                                     9,919
                D
  College
  St. Johns SD    N                                                      275    (a)   1,069
  (FTCI)                                                                                        2,039
                  D                                                      278    (a)    417
  St.             N                           3,967     (a)    1,268
  Petersburg                                                                                    8,140
                  D                            597     2,308    (a)
  College
   Total Universe       12    64     105      4,564 11,638 1,857         553    (a)   1,486     20,279

We reviewed the students’ placement information for sub-indicators 3S1, 3P1 and 3A1 by
performing a test of FL DOE’s FETPIP system.

(a) Students’ performance data for these sub-indicators were tested while sampling another sub-
indicator. The definitions of the numerator or denominator were the same for some sub-
indicators (See Appendix B for definitions).

(b) Data were not available for this sub- indicator, since it did not meet the State’s data error
threshold.

N = Numerator
D = Denominator
SD = School District

                                                      17

Audit of Florida’s Management Controls
Over Perkins III Performance Data                      Final Report             Control Number ED-OIG/A03-C0019



Appendix D

FL DOE Comments on the Draft Report



          FLORIDA D EPARTMENT OF EDUCATION




           -,_.
           .....


           1_23. 2003


           us      ~ofEdo.>catioft
           AtI,,, Mr. B<nwd Todl<}'
           0fIi.c< of 1Np«"'" Go:nmoI
           Th<W_..-lluildin,a
           100 I'«ln Sq,-= F...., Suil< SOl
           I'M.d<lphi.. I'll 19107



           SUIJJF.CT, D.-.II A..eIi' Rt;>o<'l- Cootrol Number Jill-.OIGlAOJ.oJOI9

                                                              _...ti, _ .
           to pon;oir-< itlthi.      """i.
           ThanI:)'O\O {Ollh< opponurUty to """""'" to lh<                 The Deponment ..... pka$«l
                                     ood to """'fit from .. findinp. lWny oflh< ~ identif...J tn lh<
            audi, ""'"<been <Of'«...J Ill'-'y. Th< Ilq>attrt><n1'. comrnmI> i",,)..cI<;

            F1odlo,N .. l _ fL OOE ', P.. kin, III
            N .. C . .. pl ....
                                                        ~.rl.... "« Do.. lor COlOm ••     i.,   CoIl<gto W. "


           C_ot. II"foII-"i"l _        .... .....  ......k.,y.,.,.,
                                                                1M~lifrH.
           LI _         did _  do", on all 2' """"'''';'1 ",,1,- rot ~ WI. JP2. ~ Pl, III>! ~1'2 .
           (>1'1 aod 41'2 w= _ "",100ed in lh< ....... )

            Wh<n FIorida~ buol i"" ............. .,.ddaio r", ]1'1 . IPl • .,.d 21'1 with USOOE in
            Scpo:ml><r 2000. lh< ..... i""",ifrt<! thoo it was ...,bmitl~ buolin< """ Oft only II of tile 2'
            """",,"';t}' «>11<11<'. At!hot lim<. "'" bdi<v<d!hlt ,.lth • f<><us "" du, <W.o, !hit "'" \OOOM be
            obI<., ",,]k<' ",Iiabl< """ on all 2' «>mm. .ity ""II<¥<, by lOO().2001. 11m did not "", ...



                        110.,     """",~. "...   ,m·   r~       ".m........,·,,'" ",....... _ '........




                                                               18

Audit of Florida’s Management Controls
Over Perkins III Performance Data                    Final Report                   Control Number ED-OIG/A03-C0019




              !,IS ~. of Edocation
              ,~,

              ,,,,,,,n,200)

                 •   F", 1001 ,1002, ..lim !be...,,, .,...1_ !be """'m .... i<y colk", du. ri
                     de!ermineol !hat only 20 of!be lS coIlepI ............. <1>1> quali.y stondords       ro.
                     ........ ' .. ion '" USDOE.

                     To dri.. _!be importance .flhi. daI>, each """""unity <olk", <hoi .... no!
                     _h"" 11><    ".,.,..opr;""
                                              dolo ro. theoo m<Oo""", m .... idmhfy '"'"' !bey ... ill
                     000=, ....deficier.:y prior 1<1 rocn¥ina!be".,., year', filnds,

                 •   1,2 lJoo; ...." Flo<id>.uood ..... "'V""';nll <_<hoI .... «>n>m"""yeolleg<.
                     were oIrcady f<lIOI'1in£ for .... """"""" """" CQlnm""i<y ""I~ did _ ...."
                     !be """""",ion _ ....        "ate
                                                     ano:l f.de...I~, Florida oM ~ !be
                     oomm"""Y ""Ikg< <q>Orl$ eoon:!i_ "ith              i " _ ""'"" ..       1 _ criteria
                     a! ..... and ...pmw . . -iJ\iS prio< 1<1 <lola SIIIImi ..ion and thU ioform ...... i.
                     prov;dod in ,.., ......1_ _ of ..... i n _. R"ali'inll ..... ronoutlt
                     ~ is ~. a federal upd2t. is now ~od oJ _ _ """'"
                     _in""" """"np. ....... dat.o ...., _po. and oJ many"", and rtgionol
                     """-
                 •   t.3 ... , tho tim< .... ...t;"", ""'" 1><00. I'lor>do W. . in .... """... of
                     i"'l'i<m<n<i"lIa"""""" '" ~ I0<oI J'<"f..... ""'" Iar¢' and impro .. mcnI
                     plana ... ith local edl>cational qa><ia. Thi, "",,_, ..,... jn ... _           yea., has
                     "'1uimllocal sWf",;.!en\;ry l>oiii ..... _ PfO¥R'" impr' ..<1D<fIt s<n«siOi by
                     ~ .. m"~ip", )'< ... of <101>. Thi' pro«U Iw Mablod .......!f1<l"'" on
                     io.deplh look oJ <1>1> i...... fur each measure ro. <II<h local edl>clotioo'>al "i""Y
                     f<w "",lUpk l"**- St'1'" ~ bei"i <>1<... '"      "'.i.... Ihi. 1ocal dat.o prio< '" Ih<
                     Conso~doo:"" Anrn>al R<pon SllllmiRion of ..... doIa,

              FI.dlal No. l -fL DOE'. F. "",.. III I'ffi..........         I',,,
                                                                     IItpontd t. ED W .... N ••
              A" ••• t •• -.1 R, U.b\< I., So<ooHWy'-.I " " _ d• .,.
              1-.l1t.,... IS1,1P I, lFZ.lF I, .nd IA 1,
                                                                                   PIK<_.,
                                                                               1'1 ....... S. ...


              c...<It._    ~.,j    .. /,.1,   /,.2, 21'1. U • ......u. .. ... ISI •• ~ IAI,

                 •   Florida hall along _Iishod, .... y-f _""    'j'S''''''    of ""its to ......... !be
                     RIllim ... de_, ..... data !hat or<     _nod        by "'bool diotric,. and conun.ruty
                     <ol ~ m«I defiuilioool and """""""'Y ....u i _. , Eva. with " - «Ii ...
                     110_, Ih<fe "'" rcpor1;", ...,...."". tI\at , .."'c"'      <hoi woold _ be dcIocIod.
                     F",,!IU. " ' _ <1>1> ~ or< rellliarly prov;dod 1<1 LE .... ()w _                 <orren!
                     TeportmB '" ~ l<Tm< and __ "iTh • ....." fi>a&<d <hoi oppear
                     .....,..."..." • . S iO<e ..... fond..., i. pcrlormonc< baotd, " - ~ , _ ,
                     ..,.,~ ..... "'" i _ thor !..EA. " ' " " _
                 •   2.1 Florida did "oIIerll<" ma;.,. ohift in    ,,,,"ionaI edocu;O<I de_ pro~ fur
                     !be Y"at ""';,«1 ••hi<h _ " "         "'""ipk r«OOb ro. _ _ Since "'"
                                     ,,,,,""ta
                     .,.Ii"",'. ";';T,        1\>........ ""' in place 1<1 ........ <hoi tho: dooa ;,




                                                                19

Audit of Florida’s Management Controls
Over Perkins III Performance Data                     Final Report                    Control Number ED-OIG/A03-C0019




              ... '
              US Oo:partm<nIofEdut_

              J_ 2), 200)

                      unduplicaled 10 \he stu<ktn level ..... IhoI ao:h _           ..... <>wIled .. ..,
                      ~"<!'«kino t<Iw'S<. '['b,;.           _ion _ P"t On pi ... (or the ..bmi ..ion of
                      2001·2002 dolo th....... oOOmi!t<d i. ~ 2002.
                  •   SWd<nt:o that .... itbdr<w prior 10 oncndins ,kasoco should "'" hO'< ""'" <q>OO1od ..
                      port of tho: d>to .~ _ An...rut       """<OS i. - ' I y ~_ by the FIori<Io
                      Auditor General 10 _fY ouch <mlO'I in ~i. 1-
                  •   Flotid.o i. """lear """" the ;""''''latinalOtbe lSi .... IAI~;~,
                      tbe A.-li....- G<o<nol o!oo ~"the IUbmiosion of oomplotion d....

              flodJ.1 Ii",   J-p\, ])(l~   N«d ... "" Pf'fIW      ,to Dono...... totlo.   rr ....... for
              S. ...... rtzI.1 C ........ II)' Col",.   R<pon ~


              c-..r, Anioo C_pl...,J
                  •   J.! A Cll< 10 _orncn!tbe 2OO1.Z002 doto that ...... ~iH«I in Docomh<r 2002
                      ~-.,.,....

              ,,,,d iol No.  4---.,.
                                  DOli: N«1b to J......... til_ !'r..,...I"I_f S<b' " Diou _
              "..fo, . .. ", DOl. Ropon.

              CH""'. t~ foJ",..u.6 . . ....... t. .... .aM . .~ O<'IM. U_ifk<t
                • R<gIIlar rq»<ts ... "","""Iy ~ 10 ~ dolo rqI0110d in tflo ,""""
                   )'<It 10 the or"';""" year (or ~ doI2.
                • At <he tim< the oudi_ ....      =   h<n, Florid> ..... On <he pro«Oo of imp_ins •
                   pro«Oo 10 n<!IO'wo local ~ ~ on<! im"",,'ornen1 plans";111 local
                   """'ation>l"i<"';". This ~ ""'" On iIs >eoond yaor. hoo """i.-«i 1o<00 ... ff
                   10 ioSernify boll! dolo"'! I""IV>'" imprnV<DIM ......<&i<o by Iookina at ",.I'ipl<
                   "'''''' of doiL This """... hoo embl«l ""< ... fflO .... < .. i • ..tq>ih _ at dolo
                   i><ueo for _h """""'" roo- ""'h local O<l_ionaI_y fOf "",ltip"' "' ....
                   SLopo are beiq I>l<mlO"";<w!!rio local d>t.o prior 10 the ~,..",.,..I
                   Rq'IOrt """",,.;"" of SUIt. dolo

              Ad<lillooo.1Co __     .to,
              Florida i. """"""Iy """HI'", •• Lll'I'Ibor of opportuniti .. for 1oc, I «I..,.,;o.w _      i..
              10 !<am """" the dolo ",bm ..."", oro!lo ... the <Iou. will be ....,;I for PcrId .. .,.! ""'"
              _     and fod<nl 1"'Il">'<'- W. ,;.w local od"" .. ionaI qcno;" .. portr>M in improvin~
              tho ",hobitily on<! volOdity o('be dolo ond"'"""""'tl)i "", ... ibl. '" ...i lt with dolo
              i - . ".. followirli or< . ."""I.. of opporIUIIilios 1'f""'o<Iod.
                  • Then or< ..",.,.. dolo ...., _",""", for both "boo! dis<ri<tI ond """",,,,;1)'
                      00'_
                  • 0... _    ino1ioo _ i ... and .." ..... for «IIIU" uni'yool l<p .... .:ondL>C1ed
                    _    ,i"," p""     Y"...-.
                                       oddihon.l1y, • _ . oimilar _          for the ><hool d;ltti<ts
                      Iw been implomonl<4 ..      ....,u.
                  •   \)ola 6<:finitiono and _          or< . . .ilabk in   hard ropy "'" ""Ii"",




                                                                  20

Audit of Florida’s Management Controls
Over Perkins III Performance Data                    Final Report                  Control Number ED-OIG/A03-C0019




              US~ofEdouo ~
              ,~,

              ) .... 23. rooo

                  •   S.... o ... Ifvi.ai, ifl<hridu>.l LEA> fcrt l..io~ """"i,o d>ta _   'IS.mi<b   rcnerat.
                      _ " " " fcrt impn>v<m""'.
                  •   S..,. ",IT Of< "",,,,, ible1>y I<1q>/"o>n< and """';1

              If_no«! "'y oddi';ONII infutnwior\. pl.... r..1 rr.,.I<Irontact MI. LyndaHonru"
              Di"""" or Budge< and A""""",talHlity fo.- Wodf<,roc Ed..,_ .. (aso) 24,..'002.


             ~ ~ 'fL--/;!fh""j,
              ,~




                                                                21

Audit of Florida’s Management Controls
Over Perkins III Performance Data        Final Report       Control Number ED-OIG/A03-C0019



                                            Glossary 


Completer: A completer is a student who completed at least one Occupational Completion Point
within a vocational program and left secondary or postsecondary school within the reporting
year.

Classification of Instructional Programs (CIP): A CIP is a program number used to identify FL
DOE vocational education programs.

Occupational Completion Point (OCP): An OCP is an exit point in a vocational program, which
is linked to a labor market entry point. The OCPs are identified by working with business and
industry to identify specific employability points. In some programs, there is only one OCP and
in other programs there are several OCPs that build a career ladder leading to a vocational
certificate.

Technical Preparation (Tech-Prep): A tech-prep student is a student enrolled in an articulated
sequential program of study (enrolled in level 2 or above courses) at grade level or above by
grade 11 in mathematics, science, and communications, including a technical component, which
leads to a minimum of a two- year post-secondary certificate or degree, and/or apprenticeship
program.

Vocational Concentrator: Students who are enrolled in a threshold level of vocational education.

Dropped Enrollment: Students enrolled in Perkins III but failed to attend a Perkins III class
during the reporting year.




                                                 22

